                                       OFFICE OF INSPECTOR GENERAL
                                                               MEMORANDUM




DATE:         June 8, 2004

TO:           Managing Director

FROM:         Inspector General

SUBJECT:      Report on Risk Assessment Survey of the Federal Communication
              Commission’s Human Capital Management Framework


We have conducted a risk assessment survey of the Commission’s Human Capital
Management Framework. We designed and conducted this assessment by comparing the
Commission’s strategic management of human capital to the following six (6) Office of
Personnel Management (OPM) Human Capital Assessment and Accountability
Framework standards and assigned a level of risk of the Commission not achieving each
standard:

       •    Strategic Alignment
       •    Workforce Planning & Deployment
       •    Leadership & Knowledge
       •    Results-Oriented Performance Culture
       •    Talent
       •    Accountability

Our original intention for this survey was to perform a risk assessment. During the
course of the assessment, we identified areas of the Commission’s Human Capital
Management Framework where immediate improvements could be made. As a result, we
have developed findings and recommendations that will be tracked and monitored in the
same manner as audit findings. We identified one high risk area -- Results-Oriented
Performance Culture -- and two medium risk areas -- Workforce Planning & Deployment
and Accountability -- that will require further review once the Commission implements
changes to reduce the risk levels in those areas. We made three (3) recommendations for
improvement in those areas and also made suggestions in the other low risk areas that we
believe Commission management should implement in developing its human capital
management strategy. In addition, we identified areas where more data is required before
FEDERAL COMMUNICATIONS
      COMMISSION

       OFFICE OF INSPECTOR GENERAL




Report on Risk Assessment Survey of the Federal Communication
    Commission’s Human Capital Management Framework


                Audit Report No. 03-AUD-06-08

                         June 8, 2004
            Report on Risk Assessment Survey of the Federal Communication
                Commission’s Human Capital Management Framework


                              Table of Contents

                                                                            Page


EXECUTIVE SUMMARY                                                             2
BACKGROUND                                                                    4
OBJECTIVE, SCOPE, AND METHODOLOGY                                             4
RESULTS                                                                       6
   Strategic Alignment                                                        6
   Workforce Planning and Deployment                                          8
   Effectiveness of Leadership                                                10
   Results-Oriented Performance Culture                                       12
   Talent                                                                     17
   Accountability                                                             19
CONCLUSIONS                                                                   21
   Strategic Alignment                                                        21
   Workforce Planning and Deployment                                          21
   Effectiveness of Leadership                                                22
   Results-Oriented Performance Culture                                       23
   Talent                                                                     23
   Accountability                                                             23
RECOMMENDATIONS                                                               24
MANAGEMENT COMMENTS                                                           26
APPENDIX – Management Response                                                27
                                    EXECUTIVE SUMMARY

The Federal Communications Commission (FCC) Office of Inspector General (OIG) is
responsible for conducting audits and investigations of FCC operations and programs.
The FCC OIG tasked Job Performance Systems, Inc. (JPS) of Alexandria, Virginia to
conduct a risk assessment of the Human Capital Management Framework as currently
employed at the Commission. The assessment was conducted between July 1, 2003 and
December 31, 2003. In general, the assessment found that the FCC has made significant
efforts to develop a capital management strategy that meets the standards set in the OPM
framework. There were, however, some areas where risks are present and actions to
reduce these risks are recommended.

We conducted this assessment by comparing the Commission’s human capital policies
and procedures to the Office of Personnel Management’s (OPM) Human Capital
Assessment and Accountability Framework. 1 OPM developed this framework to guide
agencies toward achieving the following six (6) human capital management standards:

           •    Strategic Alignment
           •    Workforce Planning & Deployment
           •    Leadership & Knowledge
           •    Results-Oriented Performance Culture
           •    Talent
           •    Accountability

Consistent with OPM guidance, we compared the Commission’s strategic management of
human capital to each of these human capital standards and assigned a level of risk of the
Commission not achieving each standard.

We collected the data used to assess the FCC’s risk of not achieving the standards from
documents provided by FCC staff that were relevant to human capital management,
policies and procedures being used by the FCC for managing human capital, and
interviews with administrators and managers responsible for developing, monitoring, and
implementing the Commission’s human capital management strategy.

Our original intention for this survey was to perform a risk assessment. During the
course of the assessment, we identified areas of the Commission’s Human Capital
Management Framework where immediate improvements could be made. As a result, we
have developed findings and recommendations that will be tracked and monitored in the
same manner as audit findings. We identified one high risk area -- Results-Oriented
Performance Culture -- and two medium risk areas -- Workforce Planning & Deployment
and Accountability -- that will require further review once the Commission implements
changes to reduce the risk levels in those areas. We also identified other concerns and
made recommendations for improvement in those and the other areas that we believe


1
    Building Excellence with Human Capital, OPM website, Last modified February 25, 2003.


                                                    2
should be implemented by Commission management in developing its human capital
management strategy.

In addition, we identified areas where more data is required before final
recommendations can be made concerning the most effective avenues for mitigating
specific risks during our survey. We included suggestions for compiling this additional
information in our report for each standard.

As a result of our assessment procedures, we rated the FCC’s risk of not achieving each
OPM Human Capital Assessment and Accountability Framework standard at the
following levels:

                  OPM Standard                                  FCC Risk Level
Strategic Alignment                                       Low
Workforce Planning & Deployment                           Medium
Leadership & Knowledge                                    Low
Results-Oriented Performance Culture                      High
Talent                                                    Low
Accountability                                            Medium

Higher levels of risk were assigned in areas where one or more of the following
conditions were present:

   •    A detailed and written component of a Human Capital Management Strategy was
        missing or not yet completed and published;

   •    FCC practices and procedures did not meet the criteria for ensuring a results-
        oriented culture;

   •    A measurement system was not in place to assess levels of goal achievement.

Based on the specific findings concerning risk related to our assessment of each of the
above standards, we recommend that Commission management:

       1. Compile the various components of the Commission’s existing or developing
          human capital strategy into a single comprehensive Human Resource
          Management Strategy. Once completed, this Strategy should be published and
          rolled out to FCC management and employees.

       2. Revise the Commission’s performance appraisal system to allow better
          identification of high and low performing employees. This recommendation
          also includes modifying the FCC’s reward structure to improve identification,
          recognition, and retention of key employees.




                                             3
        3. Enhance, systemize, and institutionalize the Commission’s tracking mechanisms
           and metrics for measuring managers’ and employees’ progress in accomplishing
           their respective mission goals and objectives.

                                         BACKGROUND

The General Accounting Office (GAO) predicted that serious federal human capital
shortfalls will erode the ability of many federal agencies to economically, efficiently, and
effectively perform their mission in its January 2001 Performance and Accountability
Series reports. The GAO further stated that this problem does not lie with federal
employees, “but with the lack of effective leadership and management, along with the
lack of a strategic approach to marshaling, managing, and maintaining the human capital
needed for government to discharge its responsibilities and deliver on its promises.”2

Strategic human capital management fills in the gaps of the results-oriented management
framework of financial management, information technology management, and
performance-based management.3 Two principles are central to the human capital idea.

          •   People are assets whose value can be enhanced through investment.

          •   Goal is to maximize value while managing risk.

Human capital policies must be aligned to support the agency’s mission, vision for the
future, core values, goals, and strategies. Human capital policies and procedures should
be assessed by how well they help the agency pursue its shared vision.


                         OBJECTIVE, SCOPE, & METHODOLOGY


Risk assessment objectives included obtaining an understanding of the Commission’s
human capital management policies and procedures, collecting related information,
interviewing selected administrative and operations management personnel, and
identifying areas for improvement.

We compared the Commission’s human capital policies and procedures to the Office of
Personnel Management’s (OPM) Human Capital Assessment and Accountability
Framework. OPM developed this framework to guide agencies toward achieving the
following six (6) human capital management standards:




2
    Human Capital: Meeting the Government Wide High-Risk Challenge, GAO-01-35T, February 1, 2001.
3
    Human Capital: A Self-Assessment Checklist for Agency Leaders, GAO/OCG-00-14G, September 2000,
    Version I.


                                                  4
1. Strategic Alignment – Agency human capital strategy is aligned with mission, goals,
   and organizational objectives and integrated into its strategic plans, performance
   plans, and budgets.

2. Workforce Planning & Deployment – Agency is citizen-centered, de-layered and
   mission-focused, and leverages e-Government and competitive sourcing.

3. Leadership & Knowledge Management – Agency leaders and managers effectively
   manage people, ensure continuity of leadership, and sustain a learning environment
   that drives continuous improvement in performance.

4. Results-Oriented Performance Culture – Agency has a diverse, results-oriented,
   high performance workforce, and has a performance management system that
   effectively differentiates between high and low performance, and links
   individual/team/unit performance to organizational goals and desired results.

5. Talent – Agency has closed most mission-critical skills, knowledge, and competency
   gaps/deficiencies, and has made meaningful progress toward closing all.

6. Accountability – Agency human capital decisions are guided by a data-driven
   results-oriented planning and accountability system.

Consistent with OPM guidance, we compared the Commission’s strategic management of
human capital to each of these human capital standards and assigned a level of risk of the
Commission not achieving each standard.

Throughout this report we presented the “Critical Success Factors” from the OPM
framework in italics. We detailed our assessment of the FCC’s achievement of specific
standards following each italicized element in this report.

The assessment included interviews with appropriate FCC management and staff, review
of Commission human capital policies and procedures and planning documents, and other
evaluation tools that we identified as useful and relevant. The assessment was conducted
during the period from July 1, 2003 through December 30, 2003.

Risk exists when current policies and procedures for managing human capital do not
contribute to the achievement of the FCC’s mission. We assessed how the Commission’s
Human Capital Management Framework meets each of OPM’s six human capital
standards and assigned a level of risk based on the following criteria:

       Low risk – Assessed data indicates that the reviewed OPM standard is being
       achieved by the FCC, or the Commission is taking action to ensure the standard
       will be achieved in the near future. In these instances, we made no
       recommendations for FCC management to take additional action.




                                            5
       Medium risk – Assessed data did not provide clear evidence that the FCC is
       achieving the OPM standard being reviewed. In some instances, because the FCC
       is a relatively small agency with a high proportion of professional employees,
       marginal attainment of an OPM standard may not significantly impact
       achievement of the agency’s mission which would not elevate the assessed
       standard to the high risk level.

       High risk – Reviewed data indicates that one or a combination of the following
       criteria became evident during our assessment of the Human Capital Management
       Framework standard that’s currently employed by the Commission:

       •   FCC is not meeting the assessed OPM standard;

       •   Current human capital policies and procedures employed at the Commission
           may inhibit achieving the FCC’s mission; and/or,

       •   Confusion or a lack of coherent policies and procedures about the assessed
           human capital area(s) within the Commission.

This project was conducted as a risk assessment survey. A survey is the preliminary
work done before an audit and is not an audit conducted in accordance with Government
Auditing Standards (i.e., GAO “Yellow Book” standards). The purpose of a survey is to
gather general working information on important aspects of an entity, activity, or
program and determine the nature and extent of any subsequent audit effort. The scope
of this survey incorporated steps necessary to obtain an understanding of the
Commission’s program, collect information on how the program operates, and identify
areas for improvement. This survey was not conducted, nor were the survey results
analyzed to determine the statistical validity of the responses. Our intent was to gauge
the attitudes of administrative and operations management regarding the Commission’s
human capital management program when compared to the OPM Human Capital
Assessment and Accountability Framework.

                                        RESULTS

I. Strategic Alignment                                               Level of Risk: Low

Overview: In evaluating strategic alignment, we analyzed whether the FCC has crafted a
human capital management strategy that maximizes effective and efficient use of
personnel to achieve the agency’s mission and goals.

Summary of Results: Under Chairman Powell’s direction, the FCC has initiated a
number of efforts specifically designed to effectively manage human capital. We had
difficulty in performing a comprehensive evaluation of the FCC strategy because the
strategy was under development and not fully implemented as of this report date. The
administrators responsible for human capital planning also pointed out that it will take at
least two more years for the Commission to get all of the components of the strategy


                                             6
operational. However, we assigned this area at the low risk level because we found that
the Commission is taking a comprehensive approach in developing its strategic alignment
strategy.

While the planning process addresses human capital needs, the Commission was unable
to provide metrics that measure whether goals relying on human capital are attained
and/or where they may lag. For example, the Commission recognized that staff training
is essential to achieving a balance that indicates FCC planners are focusing on strategic
alignment of its human capital with agency goals in the Commission’s Organizational
Factor for achieving Goal 2 (Competition) in its FY 2003-2008 Strategic Plan:

       “Ensuring staff is properly trained to achieve the appropriate balance among
       consumer protection, competition promotion, and imposition of necessary
       regulatory requirements is an on-going challenge.”

We found that the Commission’s planning process lacks the metrics it could use to
determine whether training has achieved this end or if more training is required. We also
found that this lack of metrics pervades the Commission’s strategic planning process for
using human capital.

Specific Results:

Does the agency’s strategic plan establish an agency-wide vision that guides human
capital planning?

We found that the Commission has incorporated human capital planning throughout its
FY 2003-2008 Strategic Plan. Specifically in the Strategic Plan’s Goal #6, Modernize the
FCC, the Commission provided guidelines on how the FCC should capitalize on its
employees’ current competencies and take action to ensure that those competencies are
kept in sync with the changing technologies within the Commission’s purview.

Does the agency look beyond its own experience and resources when developing human
capital strategies?

Administrators participating in our interviews cited numerous initiatives in which FCC
officials regularly met with counterparts from other agencies to share experiences and
best practices. In particular, the developers of the FCC University modeled the
Commission’s web portal on successful e-learning sites from other agencies. The
University is a major enhancement to the Commission’s human capital management
strategy. According to the Human Resources Management staff, the FCC keeps abreast
of and shares best practices with members of the HR Small Agency Council, Executives
Small Agency Council, Interagency Labor Relations, and other professional
organizations in order to exploit opportunities for improving its human capital
management strategies.




                                            7
Are human resource professionals and key stakeholders involved in the agency strategic
and workforce planning efforts?

Each of the HR staff members interviewed for this study expressed satisfaction with their
level of involvement in workforce planning activities. However, Human Resources
Management staff expressed their belief that, due to the short terms served by most FCC
Chairmen, the agency reorganizes more frequently than other federal organizations.
Based on our interviews, we found that Commission senior staff assigned to lead these
reorganizations seemed to be keenly cognizant of the importance of assessing
competency requirements and integrating those requirements into the Commission’s
organizational restructurings.

II. Workforce Planning & Deployment                         Level of Risk: Medium

Overview: In evaluating workforce planning and deployment we reviewed the process
for developing employee recruitment and retention strategies. We also assessed the
processes for assigning FTE levels and personnel to various activities and organizations
within the FCC.

Summary of Results – The rationale for assigning a “medium” level of risk to this
standard is based on three factors: i) slow movement toward implementing the Workforce
Planning Initiative, ii) persistence of some significant barriers to effective workforce
deployment, and iii) no evidence of a formal strategy to determine right balance of
supervisory to non-supervisory positions. Specifics concerning the Workforce Planning
Initiative are discussed below. The fact that the Initiative is underway and addresses the
critical workforce planning requirements of the FCC serves to reduce our assessment of
risk in this area. Delays in its implementation, however, led us to assess attainment of
this standard at the “medium” risk level.

The interviewed administrators and managers recognized a number of barriers limiting
effective workforce planning and deployment at the FCC. Risks for the future still exist,
even though the stability of the FCC workforce has contributed to generating a senior
level staff with more than adequate competencies to meet the Commission’s current
needs. In particular, the current situation impedes the FCC’s ability to recruit staff with
new technical skills and specializations to meet changes to the agency’s mission.
However, we found that the FCC has been aggressive in offering training opportunities to
its current staff.

Specific Results:

Does the agency approach workforce planning strategically, basing decisions on mission
needs and customer expectations, workload, and workforce?

Based on our review of documentation provided by the FCC, it appears that the
Commission has been following recommended workforce planning procedures. Under
the Commission’s Workforce Planning Initiative, leaders of all bureaus and offices were



                                             8
directed to submit information on competencies of their current staff and workforce
requirement projections to FCC management by September 8, 2003. This information is
intended to serve as the basis for a Commission-wide workforce analysis plan. The plan
will address any competency gaps between current staff attributes, skills, and strategies
with those needed to accomplish the Commission’s mission. Commission management
had projected that the Workforce Planning Initiative draft report would be issued
sometime during February, 2004 with a Final Plan being issued sometime later in FY
2004. We found that the draft Initiative has not been completed as of this report date.

The agency had previously conducted a workforce analysis in June 2001. However, we
were unable to obtain evidence showing that the FCC used this data in its efforts to
determine optimal workforce deployment strategies for accomplishing the Commission’s
mission. Additionally, FCC administrators interviewed for this review were unable to
contribute documentation that was generated from regular reviews of the Commission’s
workforce planning process.

Does the agency effectively deal with barriers (statutory, administrative, physical, or
cultural) to restructuring efforts?

Although there is intense identification and discussion of barriers limiting effective
workforce deployment, little documented evidence of the Commission’s strategies to
overcome those barriers was provided by FCC management during our assessment.

We found that three major barriers to effective workforce deployment are present at the
Commission that are considered risk factors for effective human capital management. In
combination, these risk factors become a significant risk to the Commission
accomplishing this OPM standard.

   1. Low turnover – The exceptionally low FCC staff turnover rate is either an
      indicator that the work environment at the Commission is so positive that no one
      wishes to leave, reflects the downturn in the telecommunications market place, or
      is a combination of both. Whatever the cause, the effect of a very low turnover
      rate on an organization can lead to stagnation and inflexibility. Administrators
      interviewed in this survey recognize the future risk posed by low turnover rates
      but felt that, at present, retaining senior staff ensures goal achievement.
      Interestingly, interviewed FCC operational managers did not agree with the
      administrators’ assessment. They indicated that outdated skills and employee
      reluctance to embrace new technologies and focal areas at the Commission were
      current problems that made achieving the FCC’s goals difficult.

   2. High vacancy rates in some bureaus and FTE limits – We found that staffing
      levels at the FCC changed little over the past five years. Interviewed
      administrators consider the current level of allotted FTEs as adequate for
      achieving the Commission’s six major goals and meeting the FCC’s mission.
      They held this view in spite of vacancies existing throughout the Commission,
      primarily due to current hiring limitations. However, bureau chiefs and deputies



                                             9
       responding to our inquiries indicated that they did not have adequate staffing for
       achieving their respective goals.

   3. Restrictions on hiring from the outside – Each of the bureau chiefs responding to
      our review found the FCC’s restriction on outside hiring to be a major barrier to
      effectively staffing their organizations. Based on research, fixed staffing levels
      lead to organizations not being able to recruit and hire new qualified staff from
      outside the organization. This, in turn, impedes an organization’s operational
      units from acquiring adequate personnel to help in achieving their organizational
      goals.

Do human capital strategies ensure that the organization has the right balance of
supervisory and non-supervisory positions to better meet customer needs?

We found no evidence of the Commission having a formal strategy to determine the right
balance of supervisory to non-supervisory positions during this study. The FCC’s latest
reorganization was designed to produce a flatter organizational structure which would
imply a higher employee to supervisor ratio. In fact, based on our interviews, we found
that FCC administrators and operational managers agree that the current organizational
structure provides a sufficient level of supervision that offers greater flexibility in
accomplishing the Commission’s mission. They also indicated that the FCC’s ratio of
supervisory positions to non-supervisory positions are re-evaluated whenever the
Commission reorganizes or when new supervisory positions are requested by Bureaus
and Offices. However, FCC operational managers expressed concern that their best
potential supervisors are declining management positions, primarily because of the lack
of rewards for taking on additional supervisory responsibilities. In summary, operational
managers indicated that they have the right number of supervisors to employees for
accomplishing their missions, but not necessarily the right people placed in supervisory
positions.

III. Effectiveness of Leadership                                    Risk Level = Low

Overview: To review the effectiveness of FCC leadership, we assessed such factors as
motivation provided by the leadership, plans for continuity of leadership, and the
development of a learning atmosphere within the agency.

Summary of Results: We assigned this area a level of low risk based on the effective
leadership currently in place at the FCC. Specifically, the Commission has: i) invested in
developing its employees’ leadership skills and preparing its future leaders in spite the
organization’s continuity of leadership challenges, and ii) committed to enhancing
training opportunities for FCC personnel which has had a major impact on morale. We
found that the Commission has an ongoing effort to create and institutionalize programs
that effectively utilizes and develops its human capital. The Commission also has
effective modes of communication in place, which allow both vertical and horizontal
information sharing within the organization.




                                           10
Specific Results:

Does the agency ensure continuity of leadership through succession planning and
executive development?

We found the Commission is putting significant effort into developing employee
leadership skills and preparing future leaders, despite the continuity of leadership
challenge it faces. The agency’s leadership is unique in that the average term of an FCC
Chairman is less than three years and each new chairman brings a new focus and set of
priorities at the Commission. We found that the current Chairman’s focus has been on
internal development of the FCC in order to increase its effectiveness as an organization.
This focus has led to Commission management creating of a number of human capital
initiatives that meet with wide spread staff approval. In response to the Chairman’s
leadership, FCC senior administrative management has consciously made attempts to
institutionalize these new programs to ensure their continuation when a new Chairman is
appointed to the Commission.

Do senior leaders generate high levels of motivation and commitment in the workforce
and promote ethical behavior through modeling, communication, training, accountability
systems, and disclosure mechanisms?

The interviews conducted with senior management of the FCC indicate that the
commitment of Chairman Powell on human capital development has served as a
motivator and a model. In addition, his commitment to enhancing training opportunities
for FCC personnel has had a major impact on morale. Interviewed senior administrative
leaders directly under Mr. Powell share his vision and priorities and bureau chiefs were
also positive about the impact of Chairman Powell on employee morale and the work
environment.

The indicators measuring achievement of this OPM standard are difficult to find in the
FCC archives. The evidence that is most generally used would be some form of an
employee climate survey. The only evidence that we were able to find of such data was a
survey measuring satisfaction with the FCC University. While the results of this survey
were positive, the sample was small and unscientifically selected.

A second indicator to measure achievement of this standard is the amount of
communication that is used to deliver leadership’s message and goals to the workforce.
The FCC’s Intranet site serves this purpose. Numerous respondents cited examples of
how they were able to keep informed of directives from management, as well as activities
in other FCC organizational units from information available on the Commission
Intranet.




                                            11
Even though the Commission’s risk of not attaining this standard is low, we suggest that
the Commission could achieve further improvements in this area if it adopted the
following OPM performance indicators:

   •     A formal succession or talent management program is in place. Currently, the
         Commission does not have a formal plan that bases core executive succession on
         emerging competency requirements in place.

   •     A merit based system to assess leadership competencies is in place. The
         Commission currently does not have such a system in place.

   •     A written leadership development strategy tied to the strategic plan is in place.
         The Commission does not have a written leadership development strategy
         available as of this report date.

IV. Results-Oriented Performance Culture                             Level of Risk = High

Overview: The review focus for this standard centers on the establishment of a culture
where high achieving performers are identified and rewarded. We also assessed the
FCC’s efforts to link agency goals with individual performance objectives.

Summary of Results: We assigned a high level of risk to this area because the employee
appraisal process employed by the FCC does not meet most of the performance indicators
recommended by OPM for this standard. Specifically, we found that the Commission’s
appraisal process does not: i) provide a direct line of sight between employee
performance expectations and its mission; ii) differentiate between high and low
performers; or iii) use performance results to identify developmental needs and address
poor performance. Given this lack of data, it is difficult for the FCC to demonstrate that
it operates in a “results-oriented performance culture.” As a result of the above cited
deficiencies in the Commission employee appraisal process, we assigned a “high” level
of risk to these areas because the potential exists that current practices might actually
deter the agency from achieving its goals and mission.

In addition, we found that the Commission does not have data available that measures
how well its employees understand or accept the Commission’s strategic plan or
determine whether employees are satisfied with the Commission’s reward structure.

Given the current state of the telecommunications industry, it appears that a cost-benefit
ratio induces many employees to remain with the Commission. However, a turn-around
in the industry could produce incentives for employees to move over to the private sector.
If or when this happens, the FCC faces the risk of losing its best talent to the private
sector, particularly if there is no incentive structure in place to recognize and retain them
as Commission employees.




                                             12
Specific Results:

Is there a direct line of sight between employee performance expectations and
recognition systems and the agency mission, and are these links communicated and
understood?

Current Commission employee performance appraisal forms do not explain the
connection between performance standards and the FCC’s goals. Based on our
assessment, the FCC’s current performance appraisal system would fail to meet most of
the criteria specified by OPM to determine if the agency has achieved a “Results-
Oriented Performance Culture.”

By comparing FCC practices to the Performance Indicators suggested by OPM’s
Handbook for Measuring Employee Performance and the Human Capital Management
Framework, we highlighted some of the areas where these deficiencies exist:

             Guidelines                                    FCC Status
All employee performance plans are    The performance plans used by the FCC are
aligned with strategic planning       generic. While the subject areas in the generic
initiatives                           plans are tangentially linked to FCC goals, there
                                      is little evidence that performance objectives for
                                      individual employees are aligned with the agency
                                      mission.
Performance expectations for all      While the agency conducts job analyses as part of
employees are based on job analyses   its competency assessment process, job
                                      requirements are not migrated into the
                                      performance appraisal process. The OPM
                                      handbook suggests that agencies should define
                                      work unit accomplishments as related to the
                                      organization’s mission and performance goals,
                                      and then develop individual accomplishments that
                                      support work unit’s goals. This information
                                      should then be used to define elements of
                                      performance, measures, and standards of
                                      successful performance for every element within
                                      the agency. Such analysis should then lead to
                                      distinct appraisal plans for different groups of
                                      employees as well as for individual employees.
                                      The FCC’s generic appraisal plans do not indicate
                                      that the strategy suggested by the OPM was used
                                      in their development.




                                          13
            Guidelines                                      FCC Status
Performance expectations for all         The generic performance expectations in the
employees are “measurable,               FCC’s current system do not meet these criteria.
observable or verifiable, and results-   Well-defined performance standards help
oriented”                                supervisors evaluate performance and help
                                         employees understand the expectations of
                                         performance. Standards of performance linked to
                                         each competency used by the FCC are too vague
                                         to be used in a meaningful evaluation or for
                                         providing employee guidance.


Does the agency’s performance management program provide for differentiation
between high and low performers?

The ‘pass/fail’ system currently in place at the Commission does not provide a
mechanism for differentiating between employee performance levels. In reviewing
various human capital management initiatives at the FCC, we found no substantive
mechanism for identifying high or low performers, or for crafting a reward structure that
recognizes varying performance levels. By comparing FCC’s practices with the
following OPM performance indicators, we found:

         Guidelines                                       FCC Status
Agency tracks performance        Virtually all employees “pass” under the current
through regular reporting of     performance appraisal system. This fact makes the
results                          establishment of metrics to determine trends in
                                 performance virtually impossible.
Performance measures             Such definitions or examples are available in the
include definitions/examples     guidelines that accompany the performance appraisal
to guide managers in             forms. However, the generic forms used by the FCC do
assessing employees              not easily accommodate such individuation.
                                 Additionally, we found no requirement for supervisors to
                                 create a link between organization goals and individual
                                 performance.
Statistical data indicate that   In the conduct of this study, no such data was available.
that differential rewards are    Given that virtually all employees “pass”, it is not
distributed based on             feasible that such data can be generated. According to
performance data                 some interviewees, awards are likely to be based on a
                                 supervisor’s perception of employee performance rather
                                 than actual outcomes. The Pass/Fail system does not
                                 identify superior performers deserving of extra rewards
                                 based on performance data.




                                             14
         Guidelines                                     FCC Status
Performance data is used in     There is no data available to assess achievement of this
the rewards within the          indicator. However, because of the low turnover rates
GS/SES system                   and the professional categories of employees working at
                                the FCC (e.g., lawyers and engineers), there are large
                                percentages of employees who have topped out in the
                                GS/SES systems. This makes use of promotion steps
                                within these systems difficult at the FCC. The FCC has
                                issued guidelines for application of the GS system for
                                FCC employees. However, these are basically a
                                restatement of the GS rules and regulations which
                                provide little unique guidance for their application within
                                the FCC environment.

Do supervisors and managers use performance results to identify developmental needs
and address poor performance?

During the course of this study, we found no evidence to determine whether performance
reviews were used to discuss ways to meet developmental needs of employees, praise
achievements, or address poor performance. The Commission designed its pass/fail
evaluation system to foster discussions between supervisors and employees. These
discussions, no longer the basis for ladder type ratings, were intended to allow
supervisors to be frank and honest in identifying employee performance deficiencies.
This was one of the justifications administrators responsible for employee evaluations
gave for moving to the current pass/fail system. Unfortunately, there is no data available
to assess the effect this pass/fail system has had on employee performance at the
Commission. Interviews with operational managers cast doubt on the assumption that
supervisor-employee interaction has been enhanced. The interviewees unanimously felt
that the pass-fail system was more likely to allow supervisors to avoid unpleasant
confrontations with their employees, rather than foster constructive direction.

OPM suggests a number of performance indicators to assess achievement of other
components of this standard. The following critical indicators should be examined by the
FCC:

          Guidelines                                   FCC Status
Agency procedures detail        The FCC has clear instructions for supervisors to
steps for addressing poor       document poor performance and steps to be followed to
performance                     remediate unacceptable work. There is little data,
                                however, that indicates whether these processes are
                                followed, how often they are used, or if there are any
                                trends in the requirement to identify and remediate poor
                                performances.




                                            15
         Guidelines                                    FCC Status
Agency policy factors          Sufficient supervisory performance includes application
performance management         of management practices that are aligned with established
into supervisory and           guidelines designed to contribute to achievement of the
management performance         agency’s goals. According to the memorandum on
plans                          Integration of Performance Appraisal and the FCC’s
                               Strategic Plan, all supervisors were notified that
                               supervisory and managerial performance will be
                               evaluated based on accomplishments in achieving the
                               agency’s goal. However, there is no documentation that
                               clearly links individual’s professional responsibilities
                               with broader agency goals.

Is the agency strategic plan shared and accessible to employees?

The strategic plan for FY 2003-2008 is readily accessible in print copy and on the FCC
Intranet and Internet web sites. As expected, managers and administrators participating
in this study were very familiar with the goals comprising the Commission’s plan and the
responsibilities for achieving their particular goals.

The Commission currently does not have data available to measure how well employees
understand or accept the Commission’s strategic plan. FCC management could collect
such data through an employee survey or a climate study addressing this area.

Has the agency created a “reward environment” that applies factors beyond
compensation and benefits to attract, retain, and motivate employees?

We found that the FCC has created an award environment outside of the traditional
compensation system. There are a variety of non-monetary rewards used by Commission
managers to recognize superior performance and motivate their employees. However,
based on interviews with managers, after the Commission moved to the Pass/Fail system,
these awards are not necessarily linked to the formal performance evaluation process.
Additionally, many awards are given on an ad hoc basis from recommendations by first-
line supervisors.

Employees and managers interviewed for this study cited numerous examples of non-
monetary forms of recognition for employees who performed beyond expectations. For
example, the agency provides a catalog of “Memento” awards that can be given to
qualifying employees or employees can receive “time-off” awards. The agency also uses
funds to encourage motivated employees to participate in personal development
activities. Implementation of the FCC University and initiation of a Personal
Development Plan (PDP) system are examples of the Commission moving toward this
type of employee recognition.




                                           16
Memento and time-off awards are indicators that the FCC is attempting to foster a
reward-based environment in its organization. However, assessing employee sentiments
through climate surveys would provide a better measure of the Commission’s non-
monetary reward environment on employee morale and motivation. Currently, this type
of data is not available at the FCC.

V. Talent                                                            Level of Risk = Low

Overview: In reviewing achievement of this standard, we focused on how well the FCC
has recruited and retained a workforce that matched the competencies required for
achievement of the agency mission.

Summary of Results: This area was assigned a low level of risk because the agency is
making a strong effort to develop and retain a talented workforce. The agency currently
offers a comprehensive professional training program, opportunities to develop
managerial skills, and a family-friendly working environment. The Workforce Planning
Initiative, which should result in a strategy to address workforce competency gaps, is in
progress at the FCC.

Even though we assigned this standard as a low risk area, we did note areas where the
Commission could improve and have detailed them in the following Specific Results
section. For example, we were unable to determine the adequacy of the Commission’s
plans to fill skill deficiencies, primarily because this document is not yet available as of
this report date and we found no formal strategy to measure success or indicate
deficiencies of human capital strategies that ensure a results oriented workforce at the
Commission. Please note that the Human Capital Management Standard for talent shares
the metrics deficiency that has been identified elsewhere in this report.

Specific Results:

Does the agency identify mission-critical occupations and competencies?

The agency defined its critical occupations and identified required competencies for some
occupations as part of creating its FCC University curriculum. In general, the process of
competency identification is underway; however, a process for maintaining a competency
database has not been put in place as of this report date. Using the following OPM
performance indicators, we found that the FCC is heading in the right direction in this
area, but has more work to do:

         Guidelines                                       FCC Status
Mission-critical occupation     Mission-critical occupations and corresponding skills are
and competency references       identified in the strategic plan and other documents,
are included in strategic       including the Workforce Analysis Memo and the FCC
plan and/or performance         University catalogue. The catalogue explains
plans                           competencies and correlates them with courses offered by
                                the university.



                                            17
         Guidelines                                     FCC Status
Job analyses identifying         According to available documentation and interviews, job
competencies for successful      analyses are not conducted regularly. The competencies
performance are current          are reviewed on an “as-needed” basis, such as when
and updated when                 significant changes occur in the industry or creation of a
positions/occupations            new occupation within the agency becomes necessary to
change                           accomplish mission goals.


Does the agency develop and use recruitment and retention strategies to close
anticipated workforce competency gaps?

The Commission is currently working on a strategy to address its competency gaps. This
includes expanding its employee training programs, such as establishing the FCC
University as the Commission’s main strategy for maintaining professional expertise in
the current rigid hiring environment. The university offers a number of courses in
engineering, economics, and law to help specialists stay well-versed in the latest
developments in their fields. While the agency is collecting data on competency gaps
and future recruitment needs, a formal plan to address staffing deficiencies is not yet
available.
By using the following OPM performance indicators, we found that, while the process of
competency gap identification is underway at the Commission, the plan to rectify the
gaps is not currently available:

         Guidelines                                       FCC Status
Formal recruitment and           We could not find evidence that formal recruitment and
retention plans are in effect,   retention plans are in place, although the agency has
including guidelines for         conducted some analyses to develop a comprehensive
recruitment and retention        workforce planning strategy. According to information
bonuses                          gathered during the interviews, managers are limited in
                                 their ability to use monetary incentives to attract and
                                 retain their workforce, largely due to salary caps and
                                 limited bonus pools.
Staffing, training, and          There is no indication that data on competencies and
performance data indicate        performance of current employees is used to determine the
success in closing               effects of retention and training activities on the
competency gaps                  Commission’s success in closing competency gaps.

Does the agency provide work/life flexibilities, facilities, services, and programs to make
the agency an attractive place to work?

The agency offers alternate working arrangements, such as flexible and compressed
schedules, and the option to work at home or in satellite offices (telecommuting). The
agency also has a family-friendly leave policy, provides commuting benefits, and offers a
confidential employee assistance program to its employees. This is an attractive package
that serves to make the FCC a desirable work place.


                                             18
Are human capital approaches assessed with respect to the agency’s ability to attract,
acquire, promote, and retain quality talent? Are there policies and procedures that
indicate how recruitment, hiring, promotion, and retention activities are evaluated?

Based on interviews, human resources professionals and managers recognized constraints
on hiring new personnel, but also see the agency as an attractive workplace.

Although human capital strategies are formulated and implemented with understanding of
strengths and weaknesses of the agency’s ability to acquire and retain a quality
workforce, the Commission lacks a system that evaluates those strategies. In addition,
the Commission does not have metrics available to determine program successes or
methods to identify and remediate program deficiencies.

Does the agency’s application process enable rather than deter job seekers?

We found that the Commission’s application process is clearly explained and
encouraging for job applicants. Job openings and position requirements are posted on the
agency’s website. However, throughout our interviews, managers noted that hiring
procedures for candidates from outside the agency is a lengthy, complicated, and time-
consuming process. Due to their limited ability to hire from the outside, individual
bureaus compete for necessary staff from within the Commission’s employee population.

VI. Accountability                                          Level of Risk – Medium

Overview: To assess achievement of this standard, we obtained and reviewed data the
Commission uses to monitor its human capital programs and its written procedures on
how to monitor human capital processes.

Summary of Results: We assigned this area at the medium risk level because there was
little documentation available concerning results that the FCC has achieved this standard
by following these guidelines. The OPM Accountability standard requires that human
capital decisions be guided by data-driven results-oriented planning and that there exists
an accountability system to track such planning efforts.

We also found that the FCC has various documents to guide supervisors and managers in
selected areas of human capital management. However, the Commission has not
compiled a comprehensive guidebook detailing its human capital management processes,
measures, and results. Additionally, we found no evidence of standardized procedures
for periodically assessing human capital strategies at the Commission.

Specific Results:

Does the agency analyze human capital data to assess results, identify risks, and ensure
that controls are in place to address problems and modify strategies and activities as
necessary?



                                            19
According to available documentation, the last workforce analysis was conducted in FY
2001. There is minimal documentation available on workforce data and the effects that
specific human capital management initiatives have had on the Commission. Although
workforce activities are documented, we found no metrics at the Commission that
evaluates program successes.

OPM suggests a number of procedures for ensuring that agency controls are in place to
monitor and manage human capital activities, including:

   •   Written quality assurance processes for tracking personnel transactions;

   •   Dedicated HR staff assigned to review human capital data integrity;

   •   Documented measures of success related to human capital programs;

   •   Documented human capital implementation efforts have documentation that
       outlines roles and levels of authority; and

   •   The agency tracks human capital program reviews that tracks and reports to a
       central advisory or management board.

While the FCC may not have the resources to incorporate all of these controls, it does not
appear that the Commission has a control strategy for analyzing human capital data at the
present time.

Has the agency documented all of its human capital management processes, measures,
and results?

The documents provided by management for our review describe implemented programs
or initiatives, rather than providing general guidelines and principles for the
Commission’s human capital management processes, measures, and results. We were
provided several documents on the Commission’s policies and procedures, such as the
Supervisor’s Guide to Employee Evaluations and the FCC Knowledge Management
Strategy. Each of these policies and procedures provides information on particular
aspects of Commission’s human capital management. However, the FCC has not
compiled the information required by managers into a comprehensive guidebook
detailing its human capital management processes, measures, and results.

Are human capital strategies and the processes for ensuring accountability periodically
assessed?

During the course of this review, we found that no standardized procedure for periodic
assessment of human capital strategies was evident at the Commission. This is not to say
that such assessments are not completed ad hoc or on as as-needed basis. However, there



                                           20
was no evidence of an assessment program that would meet the criteria specified in the
OPM standard for accountability.

                                     CONCLUSIONS

As a result of this risk assessment survey, we identified one high risk area -- Results-
Oriented Performance Culture -- and two medium risk areas -- Workforce Planning &
Deployment and Accountability -- that will require further review once the Commission
implements changes to reduce the risk levels in those areas. We also identified other
overarching concerns and made recommendations for improvement in those and the other
areas that we believe should be implemented by Commission management in developing
its human capital management strategy.

We also identified areas where more data is required before final recommendations can
be made concerning the most effective avenues for mitigating specific risks during our
survey. We included suggestions for compiling this additional information in our report
for each standard.

In this conclusion, we are presenting each of the following six standards in italics as they
would be stated if the standard was being met by the Commission.

1. Strategic Alignment – The FCC human capital strategy is aligned with mission,
   goals, and organizational objectives and integrated into its strategic plans,
   performance plans, and budgets.

   Risk Areas: There is a common missing element in the various components of the
   FCC human capital strategy – metrics. We found that the FCC made few rigorous
   attempts to set metrics for measuring success of various Commission programs. In
   particular, we found a lack of progress metrics. Progress metrics allow implementers
   of the strategic plan to assess whether the plan is progressing on schedule or losing
   momentum.

   Area Requiring Further Research: The FCC Human Resource Management Strategy
   is incorporated in a five year plan that is in its third year. Developing and presenting
   a road map of the plan with milestones that have been achieved and those that are yet
   to come to fruition would provide valuable information in assessing the
   Commission’s progress in this area.

2. Workforce Planning & Deployment – The FCC is citizen-centered, de-layered and
   mission-focused, and leverages e-Government and competitive sourcing.

   Risk Areas: The FCC administration appears to be following correct procedures in
   setting up a process to conduct regular workforce competency analyses. However,
   we were not able to find documentation detailing how data generated in such analyses
   is actually used in the Commission’s workforce planning. Further, identified strategic
   hiring barriers have not been overcome by management conducting workforce



                                             21
   competency analyses. The methodology to overcome these barriers should be
   included in the Commission’s competency analysis process.

   The Commission’s trend toward a flatter organization is a move toward efficiency
   and high productivity. The primary risk from this strategy reduces opportunities for
   Commission employees to be promoted into supervisory positions.

   Areas Requiring Further Research:

       •    Review the Commission’s Workforce Analysis once it’s complete, originally
            due on October 31, 2003, to evaluate the FCC’s progress in tracking its
            human capital management activities. The review would include
            determining whether the Workforce Analysis contains reliable and valid
            metrics for assessing progress in human capital planning.

       •    Perform a follow-on survey of operational managers in order to obtain better
            data concerning the Commission’s staffing levels, competencies, and
            workforce deployment.

       •    Undertake a study to assess the effects that flattening the organization and
            reducing the number of supervisory positions has had on organizational
            efficiency and employee morale at the Commission.

3. Leadership & Knowledge Management – FCC leaders and managers effectively
   manage people, ensure continuity of leadership, and sustain a learning environment
   that drives continuous improvement in performance.

   Risk Areas: The major risk in this area stems from the historically short terms served
   by FCC Chairmen. If Chairman Powell leaves before his initiatives are
   institutionalized by the administrators managing the FCC, these initiatives face the
   risk of being lost. A new chairman may set Commission priorities that are more
   policy-based rather than focused on organizational development.

   A second area of risk has to do with the lack of a formal plan for succession. A
   succession plan should incorporate an assessment of competencies required by FCC
   leaders and methodologies to be used for identifying and assessing the individuals
   possessing those competencies.

   Areas Requiring Further Research::

       •    Initiate an analysis of how the leadership development program ties to the
            Commission’s workforce planning process.

       •    Review documentation supporting the Commission’s leadership
            development plan to expand downward to middle managers and supervisors
            for timeliness and comprehensiveness.


                                           22
4. Results-Oriented Performance Culture – The FCC has a diverse, results-oriented,
   high performance workforce, and has a performance management system that
   effectively differentiates between high and low performance, and links
   individual/team/unit performance to organizational goals and desired results.

   Risk Areas: The Commission’s performance appraisal process can be viewed as an
   area of risk. Specifically, the generic appraisal form used by the FCC does not
   provide the metrics for analysis in this area. Nor does the format allow for
   identifying high performing individuals within the Commission.

   Areas Requiring Further Research:

       •    Perform a client survey designed to assess various aspects of human capital
            management activities at the FCC in order to assess how well the
            Commission’s goals have been transmitted to its rank and file employee
            base.

       •    Review the Commission’s performance appraisal process, which should
            include: i) an analysis of the data being generated by the system, how the
            data is used for assessing performance levels, and how the data is used to
            identify high and low performers; and ii) a review of the processes in place
            for training Commission supervisors in the FCC’s performance appraisal
            process.

5. Talent – The FCC has closed most mission-critical skills, knowledge, and
   competency gaps/deficiencies, and has made meaningful progress toward closing all.

   Risk Areas: Given that we assessed this as a low risk area, we consider the FCC’s
   high employee retention rates as a major risk factor in the Commission ability to
   attain this OPM standard. For example, danger exists within the engineering
   specializations at the Commission because the lack of turnover can limit the infusion
   of new technologies and methodologies in accomplishing its mission. Additionally,
   resistance of long term employees to retraining or reassignment can hinder FCC
   flexibility and creativity in pursuing those objectives.

   Area Requiring Further Research:

   A review of the Commission’s Workforce Planning Initiative should provide the data
   required to assess the adequacy of its strategy to close any workforce competency
   gaps.

6. Accountability – FCC human capital decisions are guided by a data-driven results-
   oriented planning and accountability system.




                                           23
   Risk Areas: The lack of a scheduled and documented review of human capital
   practices is a risk area for the FCC. Additionally, the lack of human capital
   performance metrics significantly limits the Commission’s ability to evaluate
   programs, identify deficiencies, and select best practices.

   Suggestions for Improvement:

       •    The Commission should establish success metrics and performance
            standards for its general human capital management strategy and individual
            programs.

       •    The Commission should compile and develop documentation on its key
            processes and incorporate them into a comprehensive management
            guidebook for current and new supervisors and managers at the FCC.

                               RECOMMENDATIONS

In completing this risk assessment, we found that the FCC has made significant attempts
to develop and implement a Human Capital Management Strategy. This process has been
incorporated into the Commission’s Strategic Plan and is present in the planning and
review processes used by its administrators. As a result of our assessment, we identified
certain areas of risk related to processes involving human capital management and the
documentation that should accompany those processes. Accordingly, we have developed
the following three recommendations:

1. The Commission should compile, publish, and roll-out a comprehensive Human
   Resource Management Strategy to its management and employees.

   The FCC has initiated numerous components of a strategy to manage its human
   capital assets. There is a risk, however, that these various components may not be
   synergistic or harmonious when completed. The following actions can be initiated by
   the Commission to add more structure in developing a strategy that ensures success in
   developing its comprehensive Human Resource Management Strategy:

        •   Assemble a panel of stakeholders with the task of reviewing the components
            of the strategy to ensure all areas are included. The stakeholder panel should
            include representatives from administration, operational managers, union
            representatives, and human resources staff.

        •   The stakeholder panel should determine a process for publication and review
            of the strategy.

        •   Once finalized, the Commission should develop and issue a Human Capital
            Program Managers Guidebook that is designed to assist its managers in
            implementing the strategy.



                                            24
2. The FCC’s performance appraisal system should be revised to better identify its high
   and low performing employees.

   The current pass-fail system employed by the FCC is seen by some constituencies as
   preferable to the ladder type rating system it replaced. Interviewed administrators
   and managers cited the following examples of the benefits they experienced with the
   pass-fail appraisal system:

       •    Administrators. Less data to manipulate and reduced employee
            dissatisfaction with their assigned ratings.

       •    Supervisors. Less paperwork and a good vehicle for avoiding contentious
            discussions with employees over their assessed performance level ratings.

       •    Union Representatives. Fewer cases to mediate and adjudicate.

   Interviewed managers agreed that, since neither system worked very well, the pass-
   fail approach was easier and probably preferable to the ladder-type performance
   evaluation system.

   We concur with the FCC managers about staying with the pass-fail performance
   evaluation system. However, we have concerns about the FCC’s implementation of
   this system. Tightening controls on the pass-fail appraisal process would mitigate
   many of the risks cited in the results section of this report. Examples of potential
   controls the Commission could adopt and implement include:

       •   Conducting employee climate surveys to obtain data on a number of human
           capital issues at the Commission. This could include survey questions
           designed to assess employees’ perceptions on the fairness and accuracy of
           their performance appraisals and the adequacy of any rewards received for
           their performance during the period.

       •   Grade supervisors on how adequately they assess their employees’
           performance.

       •   Create a mechanism that allows employees who feel they are not being
           adequately or fairly evaluated to report the situation to the HR department.

       •   Add an additional step to the appraisal process whereby supervisors and
           employees meet to individualize their performance goals.

       •   Integrate the Commission’s new Personal Development Plan (PDP) into the
           appraisal program.




                                            25
3. Develop enhanced, systematized and institutionalized tracking mechanisms and
   metrics for measuring FCC human capital management activities.

   As discussed in the first recommendation, a comprehensive Human Capital
   Management Strategy for the FCC needs to be presented to its management and
   employees that includes empiric metrics for measuring progress. It should also
   include guidance for managers and administrators that detail their responsibilities
   under the plan. At a minimum, the following components should be considered for
   inclusion:

       •   Reports from human capital administrators that include process costs and
           value-added calculations.

       •   Gantt charts that include milestones and target dates for achieving each of the
           initiatives in the Commission’s strategy. These documents should also
           identify organizational and individual responsibility for tracking achievement
           of the milestones and targets.

       •   A monitoring strategy that ensures progress reporting is being completed by
           the responsible managers and supervisors and remedial actions have been
           developed to address the areas where progress is not meeting targets.

                             MANAGEMENT COMMENTS

   On June 1, 2004, the Managing Director provided his response to our draft risk
   assessment report. In his response, the Managing Director stated that the
   Commission concurs with the above cited recommendations. We consider
   management’s response to be adequate. A complete copy of the Managing Director’s
   response is included as an Appendix to this report.




                                            26
APPENDIX




  27
